NO.

In the Supreme Court of the United States

MICHAEL KIMBREW,

Petitioner,
–v–

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS
ALYSSA D. BELL

COUNSEL OF RECORD FOR PETITIONER
COHEN WILLIAMS LLP

724 SOUTH SPRING STREET, 9TH FLOOR
LOS ANGELES, CA 90014
(213) 232-5144
ABELL@COHEN-WILLIAMS.COM
July 14, 2020

MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS
Petitioner, by his undersigned counsel, asks leave to
file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma
pauperis. The petitioner was represented by counsel
appointed in the Ninth Circuit under the Criminal Justice
Act, 18 U.S.C. § 3006A(b). This motion is brought pursuant
to Sup. Ct. R. 39.1.
Respectfully submitted,

ALYSSA D. BELL

COUNSEL OF RECORD FOR PETITIONER
COHEN WILLIAMS LLP

724 SOUTH SPRING STREET, 9TH FLOOR
LOS ANGELES, CA 90014
(213) 232-5144
ABELL@COHEN-WILLIAMS.COM
July 14, 2020

